                 TESTIMONY




        STATEMENT OF JOHN C. LAYTON

             INSPECTOR GENERAL

           DEPARTMENT OF ENERGY

                BEFORE THE

SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

   UNITED STATES HOUSE OF REPRESENTATIVES



                  10:00 A.M.



               October 23, 1997
                               SUMMARY OF STATEMENT
                                        BY
                                  JOHN C. LAYTON


The Office of Inspector General, Department of Energy (DOE), has identified deficiencies in
the administration of performance-based contracts. For example, we found:

   Incentive fees were excessive in relation to the cost of the work.
      • An incentive fee of $225,000 was paid to replace a ventilation fan when the cost
          of this work for the year was only $25,000.

Incentive fees were paid for work completed before the establishment of the performance
   objective.
       • A $776,000 incentive fee was paid for work completed on experiments before the
           performance objective was established.

Incentive fees were paid for work that was not completed by the contractor.
       • An incentive fee of $225,000 was paid for the upgrading of alarm panels in 7 tank
           farms. However, alarm panel upgrades were completed in only two tank farms.
       • A cost reduction award of $4.3 million was paid for a work force reduction that
           took place prior to the contract creating the cost reduction program.

Incentive fees were paid for work that was easily achieved.
       • An incentive fee of $150,000 was paid for the pumping of 1,500 gallons of
           solution from a tank. However, the work was completed only six days after the
           contractor proposed the incentive, and two days after the incentive was
           established.

   Performance measures were not results oriented.
      • An incentive fee of $301,000 was paid for a claimed savings of a $1.5 million
         reduction in labor costs associated with the elimination of 1,000 internal
         contractor procedures. However, DOE could not document any baseline change
         analysis which demonstrated where labor costs had actually been reduced. Nor
         could DOE demonstrate where the claimed savings had been made available for
         reuse.


I believe that if contracts have incentives, they should encourage superior performance and
discourage substandard performance. They should also be structured to ensure that safety
is not compromised. We have made recommendations to help assure that incentive fees
paid under performance based contracts represent actual achievement by the Department’s
contractors, and that real and measurable benefits are obtained by the Department and the
American taxpayer.
Mr. Chairman and Members of the Subcommittee, I am here at your request to

testify on the Department of Energy’s (DOE) implementation of performance-

based contracting.



BACKGROUND



The Department of Energy is the U.S. Government’s largest non-military

contracting agency. In Fiscal Year 1996, $14 billion of DOE’s $16 billion budget

was obligated for management and operating (M&O) or similar type contracts. In

Fiscal Year 1996, the 15 largest DOE contracts accounted for $10.6 billion. I

have attached an exhibit showing the 15 largest contracts.



I have testified on numerous occasions before Congress that DOE has not, in

general, done an adequate job of contract administration. Office of Inspector

General work has documented deficiencies in the way DOE administers its

contracts. These deficiencies have led to excessive funding for personnel

benefits, the use of taxpayer funds for purposes not intended, wasteful energy

management practices, and excessive project costs. I have testified that

improved contract administration, regardless of the specific provisions of the

contract, is necessary. Since 1989, in accordance with the requirements of the

Federal Managers’ Financial Integrity Act, DOE has reported contract

administration as a material weakness.




                                         1
The National Performance Review Report for the Department of Energy stated

that, relative to the size of the contracts being managed and the complexity of

the work being performed, the Government oversight staff was considered small

and inadequately trained. This report also stated that oversight at the

Department was hampered by a lack of specificity in the description of products

of Management and Operating Contracts and performance requirements,

expectations, and measurement criteria.



This report discussed alternative management and contracting arrangements,

and stated that the then Secretary was well aware of the weaknesses in the

Department’s contracting systems. This report stated that in testimony before

the House Committee on Energy and Commerce on May 26, 1993, the then

Secretary summarized her concerns and announced a series of initiatives to

improve the Department’s contract management, including the formation of a

Contract Reform Team to perform a top-to-bottom review of the Department’s

contracting mechanisms and practices.



In June 1993, the then Secretary of Energy established a Contract Reform Team

to review the Department’s contracting practices and to make recommendations

to improve them. The need for contract reform was driven by a recognition that

DOE was not in adequate control of its contractors, that contractors were not

sufficiently accountable to DOE, and that there was an absence of well-defined




                                        2
performance measures and criteria for DOE contractors. The Contract Reform

Team found that many of the Department’s award fee contracts suffered from

the absence of well-defined performance criteria and measures, and that, under

the DOE award fee structure, contractors were not sufficiently motivated to

identify cost-reductions or cost-avoidance approaches and apply them to their

operations.



The Contract Reform Team recommended Performance-Based Management

Contracting as a contract reform initiative. The Contract Reform Team Report

identified the key elements of the Department’s Performance-Based

Management Contracts, including: (1) clearly stated, results-oriented,

performance criteria and measures; (2) appropriate incentives for contractors to

meet and exceed the performance criteria effectively and efficiently; and (3)

specific incentives for cost savings.



As discussed in the Contract Reform Team Report, Performance Based

Contracting was intended to transition the Department from broad, subjective

statements of work in traditional Management and Operating contracts, to well

defined, objective performance criteria and measures for program activities,

environment, and health and safety requirements. Simply put, the performance

based contract was intended to clearly state what the Department expects from

its contractors, establish financial incentives that would motivate the contractors

to perform, and provide ways for the Department to measure their performance.




                                         3
Performance based contracts are designed to motivate contractors by applying

incentive fee payments for the accomplishment of specific performance

objectives, and to provide financial rewards for reducing the cost of operations.

According to the Contract Reform Team Report, the design of proper incentives

to reward superior performance and discourage substandard performance is a

critical component of the new performance-based contracting concept. The

Contract Reform Team Report stated that DOE should reward cost-effective,

superior technical performance, and overall management excellence, and

discourage substandard performance.



The thrust of the Contract Reform Team’s efforts was consistent with the August

1993 Government Performance Results Act which focused on improving the

management of federal programs and activities by establishing program goals

and measuring the achievement of these goals.



On July 5, 1994, the then Secretary gave direction in a “Decision Memorandum”

that “Throughout the complex, negotiations will commence immediately to

incorporate contract reform provisions into existing contracts, and preparations

will begin to develop negotiation strategies for new and extended contracts.” On

the following day, July 6, 1994, the Deputy Assistant Secretary for Procurement

and Assistance Management sent a memorandum to eight Operations Offices

and two Field Offices which stated that the Secretary had authorized the renewal




                                         4
and extension of selected Management and Operating contracts subject to the

conditions stated in the memorandum, which included the incorporation of

contract reform provisions into existing contracts.



In July 1994, my office issued a report on the “Inspection of the Cost Reduction

Incentive Program at the Department of Energy’s Idaho Operations Office.” We

found the Idaho Operations Office was not adequately validating cost savings

claimed. We recommended that the Deputy Assistant Secretary for

Procurement and Assistance Management and the Acting Associate Deputy

Secretary for Field Management establish written cost reduction incentive

program policies and procedures; and that these policies and procedures should

also address the manner in which cost savings should be validated.



In April 1995, Department officials issued Cost Reduction Incentives Program

(CRIP) guidance to the Operations Offices. However, as of March 31, 1997,

there has not been agreement within the Department as to which organization

has responsibility to develop and implement policy for the CRIP program. As a

result, policies and procedures have not been issued.



The Department instituted a Business Management Oversight Pilot Project to

change the way it administered contracts. Key features of the pilot project were

reliance on self-assessments by the Department’s contractors as well as the




                                         5
establishment of management systems needed to meet performance

expectations.



In May 1995, I wrote the then Deputy Secretary to express my concern that this

program appeared to reduce the authority and capability of DOE to perform

adequate contract administration. I was concerned that the Department was

moving too aggressively to reduce the level of contract administration before the

required supporting performance measurement systems were in place.



My office has since conducted several reviews of the Department’s

implementation of Performance-Based Contracting. We have issued reports

covering performance measures and cost savings programs in contracts at the

Richland Operations Office, the Rocky Flats Field Office, and the Nevada

Operations Office. Our reports have documented deficiencies in the

Department’s development and administration of performance based contracts

and the associated incentives used to improve contractor performance. These

deficiencies include:



                o Incentive fees were paid that were excessive in relation to

                  the cost of the work.

                o Incentive fees were paid for work completed before the

                  establishment of the contract incentive.

                o Incentive fees were paid for work that was not completed.




                                          6
              o Incentive fees were paid for work that was easily

                achieved.

              o Performance measures were not clearly defined or results

                oriented.



I will now discuss the results of our work at each of these locations.



PERFORMANCE BASED INCENTIVES



I will first discuss the Inspection of the Performance Based Incentive Program at

the Richland Operations Office. The Fiscal Year 1995 Performance Based

Incentive (PBI) Program at Richland was initiated as one part of the broader

Contract Reform Initiatives being implemented at Richland’s Hanford Site.



In July 1994, DOE’s Contract Reform Executive Committee recommended, and

the then Secretary of Energy approved, that the full range of contract reform

provisions should be incorporated into the Westinghouse Hanford Company

(Westinghouse) contract by October 1994, the start of Fiscal Year 1995.

However, Richland’s Deputy Manager said it was recognized by September 1994

that the Richland team established to implement the PBI Program at Richland

had reached an impasse, and that DOE Headquarters had returned the first

round of 13 draft PBIs from the Richland Operations Office as being insufficient

for a contract incentive program effort, considering the dollar size of the Richland




                                         7
PBI program and the number of individual PBIs. DOE Headquarters directed

changes to the Richland PBI Program, requiring that the dollar size of the

program be raised and that the number of individual PBIs be increased. The

Assistant Secretary for Environmental Management stated that this direction to

Richland was to allocate more of the fee pool to objectively measured

performance based incentives, and to reduce the amount of the subjective award

fee portion of the fee pool. DOE Headquarters also required that the PBI

Program be in place at Richland by December 1994. Westinghouse’s contract

was modified to include performance-based incentives on January 25, 1995.



By the end of Fiscal Year 1995, the PBI Program at the Richland Operations

Office included 34 PBIs with 86 separate performance objectives issued to

Westinghouse. The project costs incentivized by the 34 PBIs comprised $162

million of Westinghouse’s $1.38 billion budget in Fiscal Year 1995.



Under the Fiscal Year 1995 PBI Program, Westinghouse earned $11.5 million

out of a possible $14.2 million in incentive fees. For Fiscal Year 1995, the first

year of the PBI program, Westinghouse was paid a total of $19 million in base,

award, and PBI fees. In addition, Westinghouse also was paid an additional

$27.6 million in cost reduction and solid waste incentive fees for a total Fiscal

Year 1995 fee of $46.6 million. In contrast, for the three prior Fiscal Years,

1992, 1993, and 1994, Westinghouse was paid $12.7 million, $15.4 million and

$21.9 million respectively in base, award, and cost reduction incentive fees.




                                         8
The PBI incentive fees available to Westinghouse for each of the 34 PBIs

ranged from $50,000 to $1.8 million. One PBI was subdivided into eight

separate performance objectives, with each objective having an available fee of

$225,000. The Manager of the Richland Operations Office stated that an

objective methodology to determine the incentive fee was not available and the

incentive fee of $225,000 per performance objective was calculated by dividing

the $1.8 million incentive fee available by the eight performance objectives.



We reviewed 15 of the 34 PBIs in detail. Our review found that the Richland

Operations Office paid PBI fees to Westinghouse that were excessive when

compared to the cost of labor and material to perform the PBI work. For

example:



      o The Richland Operations Office paid the Contractor a Fiscal Year 1995

PBI fee of $225,000 to replace a ventilation fan in a waste storage tank.

However, the total Fiscal Year 1995 project cost for the ventilation fan

replacement was only about $25,000.



We also found that the Richland Operations Office paid PBI fees for work that

was either partially accomplished or that was completed prior to the PBI Program

being established at Richland. For example:




                                         9
      o A PBI was established for completing the shutdown of 21 systems at a

Hanford facility with a maximum fee of $300,000. Westinghouse reported that

the work was completed and the Richland Operations Office paid the maximum

fee of $300,000. However, we found that one-third of the work representing the

shutdown of 7 of the 21 systems was completed between September 28, 1994,

and January 12, 1995, prior to the establishment of the PBI Program at Richland.



      o In another case, a PBI with a fee of $100,000 was established for the

completion of four activities associated with implementation of a computer

software program even though all four activities were completed prior to the

establishment of the PBI Program at Richland. We found that Westinghouse

was paid the $100,000 fee even though documentation available to the Richland

Operations Office and Westinghouse personnel indicated that three of the four

activities were completed in October and November 1994, and the fourth was

completed 12 days prior to the January 25, 1995, establishment of the PBI

Program at Richland.



The Richland Operations Office also paid PBI fees of $910,870 to Westinghouse

for work that was not complete. In several cases, Westinghouse reported that

the work had been completed, but follow-up reviews by Richland, after the

commencement of our inspection, showed that the work was not completed in

accordance with the provisions of the PBIs. For example:




                                       10
      o A PBI was established to upgrade alarm panels in 7 tank farms with a

maximum fee of $225,000. Westinghouse reported that the work was completed

approximately one month after the PBI was established and the Richland

Operations Office paid the maximum fee of $225,000. However, Richland

subsequently determined that the alarm panel upgrades were completed in only

two of the seven tank farms prior to Westinghouse’s stated PBI completion date.



      o In another case, a PBI was established to replace compressed air

systems in 10 tank farms with a maximum fee of $225,000. Westinghouse

reported that the work was completed and the Richland Operations Office paid a

pro-rated incentive fee of $185,870. However, documentation available to

Richland and Westinghouse personnel indicated that the replacement of

compressed air systems in 7 of the 10 tank farms had been completed between

January 1993 and August 1994, prior to the establishment of the PBI Program at

Richland.



In addition, the compressed air system in one of these tank farms had not been

completed at the time the PBI fee was paid and acceptance testing of the system

had not been completed. The system required the use of a temporary

compressor for more than a year after Westinghouse reported that the work was

completed. Also, quality and safety were compromised in this case by

Westinghouse’s failure to follow required procedures for the testing and

acceptance of the system. While contractor personnel were attempting to




                                       11
conduct a preventive maintenance operation on the cooling system fans, two

fans started that the contractor personnel believed had been locked out,

resulting in a “near miss” incident. Subsequent investigation of this incident by

the Richland Operations Office found that DOE requirements were not properly

implemented during startup and acceptance of the system, and that several

deficiencies led to the “near miss” incident, including improper acceptance

testing and inadequate safety and quality oversight.



We believe that, in the establishment of performance objectives and measures

at DOE sites, careful attention needs to be given to ensure that safety is not

compromised in the contractor’s efforts to earn an incentive fee.



We also found that the Richland Operations Office paid PBI fees for

Performance Objectives which appeared to have been easily achieved and

represented little challenge to Westinghouse. In many cases, Westinghouse

already had scheduled completion dates before the PBI Program was

established. Richland documentation shows that, in these instances,

Westinghouse was in the process of completing these objectives ahead of

schedule without any incentive, or had completed these objectives within days of

the establishment of the PBIs. For example:



      o A PBI was established for Westinghouse to provide a final high-level

waste melter assessment report. Westinghouse provided the report and was




                                        12
paid the maximum fee of $200,000. However, Westinghouse completed this

report just 19 days after the incentive fee was established, and only two weeks in

advance of the report’s originally scheduled completion date where the

contractor would not have received an incentive payment.



   o In another case, a PBI was established with an incentive fee of $150,000

to pump the contents of a storage tank. The PBI required Westinghouse to

begin pumping the tank within four days of the PBI establishment date, and to

pump at least 1,500 gallons within 30 days of when the pumping started to

achieve the $150,000 maximum incentive fee. However, Westinghouse was

able to complete the pumping of the tank six days after they proposed the PBI,

and two days after the PBI was established, and was paid $150,000. The DOE

Richland Program Manager for this project said he could not recall anything

special or unique about pumping 1,500 gallons of the 10,000 gallons.



Our inspection found that the PBI Program at the Richland Operations Office

was established without any specific written policies or procedures for the

management and administration of an incentive fee program. As a result:



      o the rationale for selecting PBI Performance Objectives was unclear;

      o the justification for specific PBI fee amounts could not be determined;

      o the scope of PBI work and the criteria for acceptance were not always

         clearly defined; and,




                                        13
       o the expected financial and operational benefits of the PBIs selected

         under this incentive program were undefined in most cases.

We recommended the recovery of approximately $2 million in various Fiscal

Year 1995 PBI fees and penalties. We also recommended that the Manager,

Richland Operations Office, and the Assistant Secretary for Environmental

Management, develop policies and procedures for the management and

administration of an incentive fee program, with particular emphasis on: (1) the

rationale used for the selection of performance objectives to be included under

an incentive fee program; (2) the determination of incentive fee amounts; (3) the

definition of the scope of work to be accomplished in order to achieve an

incentive fee; (4) the identification of acceptance criteria for incentivized work;

and (5) the verification of incentivized work prior to the payment of incentive fees.



The Department agreed with the report recommendations. The Department has

reached a final settlement with Westinghouse as of June 27, 1997, which

included reimbursement to the Department of about $910,000 in Fiscal Year

1995 fees and $450,000 in Fiscal Year 1995 penalties for incomplete work; and

an additional $1.1 million in penalties for Fiscal Year 1996 PBIs, for a total

recovery of about $2.5 million in fees and penalties.



In response to our recommendations, the Assistant Secretary for Environmental

Management incorporated our comments into the “Environmental Management

Guidelines for Fee and Incentives Development” which was distributed on July




                                          14
11, 1997, to all Operations and Field Offices that support Environmental

Management Programs. In addition, the Richland Operations Office issued a

procedure for Performance-Based Contract Incentives on September 17, 1997.



Secretary Peña expressed concern about contracting within the Department

shortly after our report was issued. The Secretary announced that he had

directed the Department’s Procurement Executive to develop and coordinate a

plan to review the use of performance-based management incentives in

contracts at Department of Energy sites and facilities; and initiate a

comprehensive review of all performance-based management contracts to

ensure that contract incentives are rational, appropriately constructed, tied to

reasonable fees, and properly administered.



My office also conducted an audit on “Contractor Incentive Programs at the Rocky Flats

Environmental Technology Site.” The audit report was issued on August 13, 1997.



On July 1, l995, Kaiser-Hill Company, LLC (Kaiser-Hill) became the contractor

responsible for management of the Rocky Flats Environmental Technology Site (Rocky

Flats). As the managing contractor, Kaiser-Hill assembled a team of subcontractors

responsible for specific areas of operations. Consistent with contract reform, the

Department’s contract with Kaiser-Hill included incentive fee provisions.




                                         15
For Fiscal Year l996, the first full fiscal year of its operations at Rocky Flats, estimated

costs for Kaiser-Hill and its primary subcontractors totaled $530 million. For this period,

base fees for the contractors were about $8.7 million and available performance

measure incentive fees totaled $39.1 million. In addition, through Fiscal Year 1996,

Kaiser-Hill had submitted 20 cost reduction proposals with claimed savings of $33.3

million. Under the contract’s terms, Kaiser-Hill would be entitled to 35 percent of

savings approved by the Department.



For Fiscal Year 1996, Kaiser-Hill and its team received the base fee of $8.7 million and

$29.2 million of the available performance measure incentive fees. As of November

1996, cost reduction proposals, valued at $16 million, were approved and Kaiser-Hill

was awarded almost $5.6 million in cost savings incentives.



The purpose of our audit was to determine whether cost reduction awards and

performance fees paid to Kaiser-Hill were appropriate and justified. We found that the

Rocky Flats Field Office rewarded the contractor for cost reduction proposals that were

not innovative and that these proposals generally did not result in savings that had been

returned to the Department’s control. We also found that the performance measures at

Rocky Flats rewarded performance expectations that were not clearly defined and were

not always structured so as to encourage and reward superior performance.



COST REDUCTION INCENTIVES




                                          16
According to Departmental guidance issued in April 1995, contractors should be

rewarded for innovative cost reduction incentive proposals that reference appropriate

baselines and which return claimed savings to the Department’s control. However, the

Rocky Flats Field Office approved three of Kaiser-Hill’s proposals, with savings valued

at $16 million, that did not meet the criteria included in the Department’s guidance. The

most significant of these was a “proposal” to accelerate a planned reduction in the

contractor work force.



In November 1995, Kaiser-Hill submitted a cost reduction proposal in which it claimed

that it accelerated by about three months a planned reduction in the contractor work

force at Rocky Flats. Kaiser-Hill stated that during the transition period, “...on its own

initiative and using its own funds...”, it took “...immediate and decisive steps...” to

reduce its work force on July 1, 1995, and thereby saved the Department about $14.9

million. The Department accepted the proposal. As a result of its financial review, the

Rocky Flats Field Office reduced the claimed savings from $14.9 million to $12.3 million

and awarded a $4.3 million incentive fee to Kaiser-Hill for the claimed savings. Our

audit disclosed, however, that the proposal would have been rejected had the

Department applied its own guidance for accepting contractor cost savings proposals.

Specifically, we determined that the employees had been separated on June 28, 1995,

by the predecessor contractor, EG&G Rocky Flats, Inc. (EG&G). This was prior to the

July 1, 1995, effective date of the Department's contract with Kaiser-Hill, in which

Kaiser-Hill became responsible for managing Rocky Flats.




                                          17
Furthermore, we found that Kaiser-Hill had already been compensated for work force

restructuring activities under a fixed-price transition contract. This contract, for which

Kaiser-Hill was paid $9.9 million, was in effect from May 1, 1995, through June 30,

1995. It included a Human Resources clause requiring, among other activities, that

Kaiser-Hill:



       o Develop a Labor Relations and Workforce Restructuring Plan,



       o Prepare for the hiring and transferring of employees, and



       o Initiate procedures required by the rightsizing process, such as identifying the

number of employees in effected classifications, coordinating appropriate retraining,

and promptly submitting a rightsizing plan to the Department.



We also found that the cost reduction proposal was not innovative as required by

Departmental guidance. Specifically, the Department anticipated that work force

reductions would be part of Rocky Flats’ transition from a defense mission to an

environmental cleanup mission. Further, the reduction-in-force was driven by a

declining budget over which the contractor had no control. Finally, the Department had

anticipated the work force reductions months before Kaiser-Hill was selected as the

new contractor.




                                         18
An analysis of the related sequence of events at Rocky Flats supports our conclusions.

Specifically,



       o In a July 1992 report to Congress on the Rocky Flats transition, the

Department described prospective work force reductions to about 4,500 persons

between Fiscal Years 1992 and 1995.



       o In a December 1994 memorandum to Headquarters officials, the then

Rocky Flats Field Office Chief Financial Officer discussed the need to accelerate

contractor downsizing to achieve Fiscal Year 1996 budget expectations.



       o In a February 1995 media advisory, the Department announced the need to

eliminate 1,700 employees by November 1, 1995.



       o In a May 9, 1995, memorandum to senior Headquarters’ officials, the then

Rocky Flats Field Office Manager requested approval for employee terminations

designed to allow the Kaiser-Hill team a “running start” on July 1, 1995. Headquarters

approved these actions a day later.



       o In a news release dated May 11, 1995, the Department announced the

schedule for implementing the previously anticipated reduction-in-force, indicating that

the reduction was budget-driven.




                                        19
Under Department guidance, acceptable cost reduction proposals must return "hard

dollar," or measurable, near-term savings to the Department's direct control. In this

instance, there was no support for the claim that the savings had been returned to the

Department. As stated in Department guidelines, a revised baseline of cost, schedule,

and work scope should have been prepared and compared to the existing baseline to

demonstrate actual cost savings. An analysis of baseline changes provides

confirmation that the savings have actually been made available to the Department.

Kaiser-Hill did not establish a new baseline in its cost savings claim. Similar concerns

about Departmental acceptance of "soft," unsupported contractor claims of savings

have been raised during Office of Inspector General reviews at other Department

facilities.



In responding to our draft report, Rocky Flats Field Office management stated that it did

consider Departmental guidance but believed that applying the guidance would have

been inappropriate for the following reasons:



        o The guidance was issued by Headquarters in April 1995, and was not

available to the Rocky Flats Field Office when the Kaiser-Hill contract was signed April

4, 1995.



        o The guidance had not been incorporated into Departmental Orders and was

therefore not mandatory.




                                        20
We did not find the arguments set forth by the Rocky Flats Field Office compelling.

First, the April 1995 guidance and the basic principles for accepting contractor cost

reduction proposals had been under development for many months prior to formal

issuance. Second, Rocky Flats Field Office personnel should have been familiar with

the Departmental guidance since a senior Rocky Flats Field Office contracting official

participated in its development. Third, the principles contained in the guidance were

part of the recommendations for contractor cost savings incentive programs in the 1994

Contract Reform effort. Finally, even the contractor, Kaiser-Hill, recognized the

applicability of the April 1995 guidance. In transmitting its cost savings proposal to the

Department, it referred directly to selected portions of the April 1995 guidance in

support of its proposal.



We concluded that Kaiser-Hill received a cost reduction award of $4.3 million for a

reduction in work force which took place prior to the contract creating the cost reduction

program becoming effective.



PERFORMANCE MEASURE INCENTIVES



One of the underlying principles of contract reform is to reward and encourage superior

performance. The Department and Kaiser-Hill agreed to performance measures and

related incentive fees for Fiscal Years 1995 and 1996. Our audit examined 15

measures in detail. For these 15 measures, incentive fees of $13.9 million were

available and Kaiser-Hill and its primary subcontractors were awarded $11.7 million.




                                         21
We concluded that 9 of the 15 measures, with related incentive awards of $6.9 million,

were questionable. The measures we questioned defined expectations without

objective data to support the definition and were, therefore, not structured to encourage

and reward superior performance. For example:



       o Kaiser-Hill and its team received $2.3 million as an incentive fee for entering

line items of property into the Government's property system. However, the

performance measures used were not derived from objective data, were easy to

achieve and did not, therefore, represent a challenge to the contractor. The audit

disclosed that Kaiser-Hill processed from 2 to almost 4 times the number of data entries

envisioned under the measures. The contractor’s actual performance confirmed that

the original performance levels were not realistic. In responding to our report,

Department management agreed that the performance measures could have been

more challenging.



       o Kaiser-Hill and its team also received an incentive award of about $61,000

ostensibly for reducing safety violations by 10 percent against the prior period’s level of

safety violations in a specific building at Rocky Flats. We found, however, that there

had not been any safety violations in the building in the prior period. It was clear that

objective data was not used to establish a realistic measure.



       o Another performance measure was designed to encourage Kaiser-Hill and its

team to self-identify safety violations. Under this measure, the contractors were not to




                                         22
receive a fee if more than two safety violations were brought to their attention during the

measurement period. The theory supporting the measure was that if the Department

had to report more than two safety violations, the contractors were not doing an

adequate job of self-identification. The Rocky Flats Field Office, however, identified

three unreported safety violations during one period. Despite the specific terms of the

measure, which should have nullified a performance incentive under the circumstances,

the Department paid Kaiser-Hill and its team almost $600,000.



We concluded that the conceptual change from the Department’s traditional

management and operating contracts to performance-based contracts was significant

and that it required a substantial amount of preparation time and additional experience.

We observed that the ambitious implementation schedule for performance-based

contracting at the Rocky Flats Field Office may not have been adequate. The Rocky

Flats Field Office, in essence, had to implement performance-based contracting at the

same time that it was learning the fundamentals of the process, including the

development of meaningful measures.



Department management concurred with our recommendations to strengthen

requirements for cost reduction proposals and to clarify guidance on performance

measures. The Department also agreed to review the transition contract, and the July

1, 1995 contract, to ensure that no redundant compensation associated with the

accelerated work force reduction proposal occurred. However, the Department stated




                                        23
that there were no legal grounds for recovery of funds after approval of a cost reduction

proposal which met all other contract terms and conditions.



My office also conducted an audit of the “Contractor Incentive Program at the Nevada

Operations Office.”



In January 1996, Bechtel Nevada Corporation became the management contractor for

the Department’s Nevada Test Site and associated activities. Consistent with Contract

Reform, the Department’s contract with Bechtel included performance measures and

incentive fee concepts.



For Fiscal Year 1996, performance measures covered the first nine months of the

contract -- January 1, 1996, through September 30, 1996. For this period, Bechtel’s

operating budget was $347 million. Total performance incentive fees of $19 million

were available in Fiscal Year 1996, of which Bechtel received $14.6 million. Bechtel’s

operating budget for Fiscal Year 1997 was $259 million and the maximum available fee

was $16.7 million. The purpose of this audit was to assess the effectiveness of

performance-based contracting at Nevada. We examined 6 of 27 Fiscal Year 1996

performance measures in detail and made a limited review of the 25 performance

measures for Fiscal Year 1997.



We found that performance measures associated with the Bechtel contract included

milestones that were established after the work had actually been completed and




                                        24
criteria that was vague and non-specific. As a result, the Nevada Operations Office

rewarded performance that could not be objectively validated. For example:



       o The Nevada Operations Office established 31 performance measurement

milestones for certain subcritical and laboratory readiness experiments. Twelve of the

31 milestones, for which Bechtel received about $776,000 in incentive fees, were

added after the milestones had already been completed. For instance, Bechtel was

required to replace a hoist and to perform a “safety walkdown.” These tasks were to be

completed by February 5, 1996, and April 1, 1996, respectively. However, the

milestones associated with these tasks were added to the contract on June 25, 1996,

months after the work had already been accomplished. Bechtel billed the Nevada

Operations Office for these tasks on July 18, 1996. The Nevada Operations Office

acknowledged that there were delays in getting milestones formally approved. It

contended, however, that sufficient evidence existed to demonstrate that the milestones

were developed and agreed to before accomplishing the work. However, the Nevada

Operations Office did not provide, nor could we locate, any documentation to support

this position. In fact, we noted that 60 percent of the incentive fees available for the

subcritical and laboratory readiness experiments were associated with milestones that

were labeled “To Be Determined” as of February 7, 1996, in Nevada documents.



       o Another performance measure required Bechtel to reduce indirect and fringe

benefit costs at the Nevada site and make the savings available to the Department.

Available incentive fees for this measure totaled $3.2 million. Of this amount, Bechtel




                                         25
received $1.8 million for claimed indirect cost reductions of $10.2 million. We reviewed

5 of 31 claimed reductions, representing 79 percent of the $1.8 million paid. In one

instance, Bechtel claimed that it eliminated 1,000 unnecessary internal procedures and

saved, as a result, $1.5 million in labor costs annually because the procedures no

longer needed to be maintained. For this claim, the Nevada Operations Office paid

Bechtel an incentive fee of $301,000. Bechtel could not provide any baseline change

analysis which demonstrated where labor costs at Nevada had been reduced through

employee reductions or transfers, or where employees had assumed additional duties

as a result of this change. In addition, neither the Nevada Operations Office nor

Bechtel could demonstrate that the claimed savings had been made available for

Departmental reuse either through a deobligation to the contract or a reprogramming of

funds.



         o Also as part of the indirect cost reduction measure, Bechtel claimed a savings

of $2.8 million because employee fringe benefit costs were less than those of the

previous site operating contractors. The Department paid Bechtel an incentive fee of

$343,500 for this action. Neither the Nevada Operations Office nor Bechtel could

demonstrate that the claimed savings had been deobligated from its contract or

reprogrammed for other use. Therefore, the incentive fee of $343,500 paid to Bechtel

appeared questionable. In responding to our report, the Nevada Operations Office

management acknowledged that its validation of claimed savings was subjective

because of the difficulty in establishing measurement baselines.




                                         26
       o We found that, as was the case with the performance measures for Fiscal

Year 1996, many of the Fiscal Year 1997 measures were subjective and process-

oriented. For instance, one of the key measures described expected performance, in

part, as reducing the cost of doing business through business development, more

efficient processes and practices, and the identification of innovative problem solving

solutions. This measure carried with it a potential incentive fee of $2.5 million.

However, we found that its vague language makes it nearly impossible for the

Department to objectively evaluate contractor performance.



We recommended that the Department enhance future performance measures

consistent with Contract Reform. We also recommended that the Department seek

recovery of incentive fees paid where the work was accomplished prior to setting the

performance measure, where the performance measure was not met, or where the

savings cannot be demonstrated.



The problems experienced by the Department in establishing and administering

performance-based contracts at Richland, Rocky Flats, and Nevada were generally

attributed by local DOE managers to the challenges associated with the transition from

traditional management and operating contracts to performance-based contracts.

Department managers, in fact, expressed frustration at the difficulty in defining

performance measures and setting performance targets within limited timeframes

without sufficient procedures and policies in place.




                                         27
The reports I have discussed show, I believe, that the Department had not developed

adequate performance measurement systems to ensure the prudent expenditures of

taxpayer dollars.



This concludes my statement and I would be happy to answer any questions you may

have.




                                      28
                  Department of Energy
        FY 1996 Obligations for 15 Largest Contracts

                               Contractor                                              Obligations
                                                                                        (000's)1/

Lockheed Martin Energy Systems            $                                               1,353,644
Lockheed Martin-Sandia Corp.                                                              1,285,800
Westinghouse Savannah River Co.                                                           1,178,533
University of California (Los Alamos)                                                     1,125,735
University of California (Livermore)                                                        938,189
Westinghouse Hanford Co.                                                                    918,547
Lockheed Martin Idaho Tech.                                                                 599,616
Kaiser Hill Co., LLC                                                                        565,731
University of Chicago                                                                       490,887
Lockheed Martin Energy Res. Corp.                                                           419,811
Associated Universities, Inc                                                                399,681
Battelle Memorial Institute                                                                 374,589
Bechtel Nevada, Inc.                                                                        341,000
University of California (Berkeley)                                                         328,138
Allied Signal, Inc.                                                                         317,018
                                    Total $                                              10,636,919



1/
     Source: Adjusted DOE Annual Procurement and Financial Assistance Report FY 1996




                                                       29
